<html>
<title> - RUSSIAN ARMS CONTROL CHEATING AND THE ADMINISTRATION'S RESPONSES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                  RUSSIAN ARMS CONTROL CHEATING AND THE 
                            ADMINISTRATION'S RESPONSES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                          (Serial No. 113-238)

                                AND THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                          (Serial No. 113-132)

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               _________

             Printed for the use of the Committee on Foreign Affairs and the
                      Committee on Armed Services
                      
                   
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
91-846PDF                     WASHINGTON : 2015                          
                                 
_______________________________________________________________________________________                                
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--resigned 5/
    20/14 noon deg.
SEAN DUFFY, Wisconsin<greek-l>--
    added 5/29/14 noon deg.
CURT CLAWSON, Florida<greek-l>--
    added 7/9/14 noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                      COMMITTEE ON FOREIGN AFFAIRS
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts

                                 ------                                

                      COMMITTEE ON ARMED SERVICES
                    Subcommittee on Strategic Forces

                     MIKE ROGERS, Alabama, Chairman
TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDREE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                   Colin Bosse and Eric Smith, Clerks
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Rose Gottemoeller, Under Secretary for Arms Control 
  and International Security, U.S. Department of State...........     2
The Honorable Brian McKeon, Principal Deputy Under Secretary for 
  Policy, U.S. Department of Defense.............................    10

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Rose Gottemoeller: Prepared statement..............     4
The Honorable Brian McKeon: Prepared statement...................    12

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
Written responses to questions submitted for the record by 
  members of the subcommittees...................................    50


    RUSSIAN ARMS CONTROL CHEATING AND THE ADMINISTRATION'S RESPONSES

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                    Committee on Foreign Affairs and

                   Subcommittee on Strategic Forces,

                      Committee on Armed Services,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2:01 p.m., in 
room 2118, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The Subcommittee on Terrorism, Nonproliferation, 
and Trade and the Subcommittee on Strategic Forces is convened.
    This hearing is a continuation of the Russians' arms 
control to bring us up to date. I would recall and remind all 
committee members that there was a classified briefing 
yesterday on this issue. We have this public briefing today, 
and there will be another classified briefing after this public 
hearing this afternoon. The classified briefing I found 
alarming, and that is why we have the witnesses here this 
morning, or this afternoon.
    The Chair, with the agreement of Mr. Rogers, will dispense 
with all opening statements of members. Without objection, all 
of the members may have 5 days to submit statements, questions, 
and extraneous materials for the record subject to the length 
of limitation in the rules.
    I will introduce our two witnesses, allow them to give 
their statements. Then we will recess for votes and come back 
for questions. That will be the format of this joint committee 
hearing.
    Ms. Rose Gottemoeller is the Under Secretary for Arms 
Control and International Security at the U.S. Department of 
State. Mrs. Gottemoeller also served as the Assistant Secretary 
of State for the Bureau of Arms Control, Verification and 
Compliance, and was the chief U.S. negotiator in the New START 
treaty with Russia.
    Mr. Brian McKeon is the Principal Deputy Under Secretary 
for Policy at the U.S. Department of Defense. Mr. McKeon also 
served on the National Security Council staff and as Deputy 
National Security Advisor to the Vice President.
    Ms. Gottemoeller, we will start with you.
    I would request that the witnesses try to keep their 
statements to 5 minutes.
    You are recognized.

 STATEMENT OF THE HONORABLE ROSE GOTTEMOELLER, UNDER SECRETARY 
FOR ARMS CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF 
                             STATE

    Ms. Gottemoeller. Thank you very much, Mr. Chairman.
    Chairmen Poe and Rogers, Ranking Members Sherman and 
Cooper, distinguished members of the House Foreign Affairs and 
Armed Services Committees, thank you for hosting this hearing 
today, for having me here today.
    Today I want to seek about three things: Why arms control 
agreements with Russia continue to be an important tool to 
enhance the security of the United States, our allies, and 
partners; the seriousness with which the administration takes 
compliance with arms control agreements; and U.S. efforts to 
ensure Russian compliance with its arms control obligations.
    As has been recognized for 4 decades, verifiable arms 
control agreements can enhance the security of the United 
States, our allies, and our partners. The Obama administration 
has continued the longstanding bipartisan approach to arms 
control with Russia that had its origins in the days of the 
cold war. The administrations of President Ronald Reagan and 
George H.W. Bush were the architects of many of our most 
successful and enduring arms control efforts.
    That said, Russia's actions in Ukraine, increasingly 
confrontational posture, and violations of the INF and CFE 
treaties have undermined trust and must be addressed. While 
diplomacy between the United States and Russia continues, no 
one can ignore that Russia's actions have undermined the very 
principles upon which cooperation is built.
    Further, as we consider arms control priorities this year 
or in any year, we will continue to consult closely with our 
allies and partners at every step of the way. Our security and 
defense, as well as that of our allies and partners, is 
nonnegotiable. We will only support arms control agreements 
that advance our national security interests.
    I will cite the New START example as one such. Since New 
START entered into force in 2011, the United States has 
inspected, with boots on the ground, Russian nuclear weapons 
facilities 70 times. Moreover, the United States and Russian 
Federation have exchanged more than 7,500 notifications on one 
another's nuclear forces in the past 4 years. These 
notifications provide predictability by enabling the tracking 
of strategic offensive arms from location to location, giving 
advance notice of upcoming of ballistic missile test launches, 
and providing updates of changes in the status of systems 
covered by the treaty.
    In the realm of conventional arms control, the United 
States and our allies have been using arms control and 
confidence-building mechanisms in an effort to promote 
stability in Europe, provide transparency on Russia's 
provocative actions in and around Ukraine, and assure our 
allies and partners in the face of Russian aggression.
    We believe that arms control mechanisms have great 
importance not only in providing insight and transparency into 
Russian actions on the ground in and around Ukraine but in 
demonstrating support for our allies and partners. More 
broadly, such mechanisms contribute to greater transparency and 
stability in the Euro-Atlantic region.
    I want to underscore, Mr. Chairman and colleagues, that our 
NATO allies and other partners in Europe are strong supporters 
of arms control and confidence-building mechanisms. And they 
count on our active participation and leadership of these 
efforts.
    Now let me turn very quickly to INF.
    In July of this year, as you know, the United States 
announced its determination that Russia was in violation of its 
Intermediate-Range Nuclear Forces Treaty obligations not to 
posses, produce, or flight-test a ground-launched cruise 
missile with a range capability of 500 to 5,500 kilometers. We 
take this violation extremely seriously.
    The INF Treaty, negotiated and ratified during the Reagan 
administration, eliminated an entire class of ballistic and 
cruise missiles capable of delivering nuclear and nonnuclear 
weapons. The INF Treaty benefits the security of the United 
States, our allies, and the Russian Federation, and the United 
States is committed to the continued viability of the INF 
Treaty.
    We have been steadily raising our concerns with Russia 
regarding violation of the INF Treaty and have, since July, 
held senior-level bilateral discussions, with the aim of 
returning Russia to verifiable compliance with its treaty 
obligations.
    In addition to these diplomatic efforts, we are actively 
reviewing potential economic measures in response to Russia's 
violation, and the United States is assessing options in the 
military sphere to ensure that Russia will not gain a 
significant military advantage from its violation of the INF 
Treaty.
    My colleague, Brian McKeon, will speak further about that.
    In sum, for more than 40 years, arms control has been a 
tool that has contributed substantially to the national 
security interests of the United States, providing 
predictability and stability to us and to the global community. 
As owners of more than 90 percent of the nuclear global 
stockpile, the United States and Russia continue to have a 
special responsibility in this regard.
    We will continue to pursue arms control and 
nonproliferation tools along with effective verification, 
because they are the best path that we can take to effectively 
limit and reduce nuclear threats and prevent such weapons from 
proliferating to other nation-states or falling into the hands 
of extremists bent on causing colossal destruction.
    Thank you for your partnership in this effort, and I look 
forward to answering your questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Gottemoeller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Poe. The Chair recognizes Mr. McKeon for 5 minutes.

STATEMENT OF THE HONORABLE BRIAN MCKEON, PRINCIPAL DEPUTY UNDER 
        SECRETARY FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Mr. McKeon. Thank you very much, sir.
    Chairman Rogers, Chairman Poe, Ranking Member Cooper, 
Ranking Member Sherman, distinguished members of the two 
subcommittees, thank you for this opportunity today.
    I will try not to repeat what Under Secretary Gottemoeller 
has told you. In addressing the issues outlined in your letter 
of invitation, I would point you to my full statement for the 
record. Let me highlight a few key points.
    When implemented fully by all parties, arms control 
agreements advance U.S. national security interests. The United 
States is made safer and more secure by such agreements. The 
administration closely monitors compliance of other states-
parties to arms control treaties and agreements, including that 
of the Russian Federation. And, as required by law, we report 
this assessment to the Congress.
    Through this effort, the Obama administration has 
determined that the Russian Federation is in violation of its 
obligations under the INF Treaty. We reported this violation in 
the arms control compliance report issued in 2014, and we have 
briefed you regularly on our concerns about Russia's actions 
and discussed it with our allies and partners.
    We believe the INF Treaty contributes not only to U.S. and 
Russian security but also to that of our allies and partners. 
For that reason, Russian possession, development, or deployment 
of a weapons system in violation of the treaty will not be 
ignored.
    Our objective from the very beginning has been to preserve 
the viability of the INF Treaty and convince Russia to come 
back into compliance with its obligations under it. Our 
approach to this issue has been multipronged, beginning with 
engaging Russia diplomatically while discussing other potential 
measures in coordination with allies.
    We have engaged the Russian Federation in diplomatic 
channels since 2013, including senior-level discussions in 
Moscow in September of this year. Unfortunately, Russia has not 
been forthcoming with any information, nor has it acknowledged 
the existence of a noncompliant cruise missile. Instead, the 
Russian side has chosen to accuse the United States of 
violating its obligations under the INF Treaty.
    In our view, all of Russia's claims are categorically 
unfounded. The United States has been and remains in compliance 
with all of its obligations under the INF Treaty. In our 
September meeting in Moscow, we fully addressed each of 
Russia's concerns, providing Russian officials with detailed 
explanations and treaty-based reasons as to how U.S. actions 
comply with our obligations. These Russian claims, we believe, 
are meant to divert attention from its own violation.
    As a result of Russia's actions, the Joint Staff has 
conducted a military assessment of the threat were Russia to 
deploy an INF Treaty-range ground-launched cruise missile in 
Europe or the Asia-Pacific region. This assessment has led us 
to review a broad range of military response options and 
consider the effect each option could have on convincing 
Russian leadership to return to compliance with the INF Treaty 
as well as countering the capability of a Russian INF Treaty-
prohibited system.
    We do not want to find ourselves engaged in an escalatory 
cycle of action and reaction. However, Russia's lack of 
meaningful engagement on this issue, if it persists, will 
ultimately require the United States to take actions to protect 
its interests and security, along with those of its allies and 
partners. Those actions will make Russia less secure.
    We now have a significant challenge ahead of us. We hope 
the Russia Federation will remember why the Soviet Union signed 
the INF Treaty in the first place. By agreeing to that treaty, 
the United States and the Soviet Union ensured that both 
parties benefited from the removal of weapons systems that 
posed a real and credible threat to European security.
    As I noted at the outset, the United States takes treaty 
compliance very seriously. The ramifications of Russia's 
actions and our response affect more than just one arms control 
agreement; they affect our ability to pursue future arms 
control and nonproliferation regimes. Such a violation 
threatens our security and the collective security of many 
allies and partners. This violation will not go unanswered, 
because there is too much at stake.
    We look forward to keeping you informed on this matter as 
the situation develops.
    Thank you for the opportunity to be here today, and we look 
forward to your questions.
    [The prepared statement of Mr. McKeon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Poe. I thank the statements of the witnesses.
    As previously stated, the subcommittees will be in recess 
until 15 minutes after the last vote in a series of three 
votes. The first series--or the first vote in the series is 
taking place now.
    So the subcommittees are adjourned.
    [Recess.]
    Mr. Poe. The subcommittees will come to order.
    The Chair will recognize himself for 5 minutes.
    If I understand your testimony correctly, the Russians are 
in violation of this treaty. My question is, are the Russians 
in violation of any other arms control treaties besides the 
INF?
    Ms. Gottemoeller. Yes, Mr. Chairman. We do consider the 
Russians to be in violation of the Conventional Forces in 
Europe Treaty.
    Mr. Poe. Is it correct to say that the Russians are in 
violation, are not complying with the eight other arms control 
treaties besides this one?
    Ms. Gottemoeller. Sir, in some cases, we are working on 
compliance issues with them. In the case of the Open Skies 
Treaty, for example, we have had some concerns about their 
compliance with the Open Skies Treaty, but we are working, and 
in some cases successfully working, to resolve some of our 
concerns.
    In other cases, such as the Biological Weapons Convention, 
we have been unable to determine whether current activities 
that they have going on would not be in compliance with the 
treaty. And in some cases----
    Mr. Poe. Excuse me. Let me ask you this question.
    Ms. Gottemoeller. Yes.
    Mr. Poe. Are they in violation or not in compliance with 
eight other arms control treaties?
    Ms. Gottemoeller. Sir, I believe that is not quite correct, 
because some we have determined that they are in violation, 
actually in violation of the treaty, and in some cases there 
are some issues that we are working with them on to determine 
their compliance.
    Mr. Poe. Does not being in compliance mean the same as 
violation?
    Ms. Gottemoeller. Well, I will just give you an example, 
sir. We have for each of the treaties and agreements an 
implementation body for that treaty or agreement. In the case 
of the New START treaty, it is called the Bilateral 
Consultative Commission. And when issues come up in an 
inspection, we may have a difference with the Russians, but we 
try to sit down and work out that difference. In the latest 
session of the BCC, we were able to work out some differences 
with the Russians about their inspection approaches.
    So it takes some time and it takes some work to figure out 
whether they are actually in violation of a treaty.
    Mr. Poe. So does ``violation'' and ``noncompliance'' mean 
different things? That is really my question.
    Ms. Gottemoeller. ``Violation'' and ``noncompliance'' mean 
the same thing. I was just making the point that, in each of 
the treaties and agreements, if we went through them one by 
one, I could tell you, you know, in some cases----
    Mr. Poe. So----
    Ms. Gottemoeller [continuing]. We are working----
    Mr. Poe [continuing]. Let's go back to my question.
    Ms. Gottemoeller [continuing]. On issues.
    Mr. Poe. I am sorry. I want to get this straight. 
``Noncompliance'' and ``violation'' do mean the same thing.
    Ms. Gottemoeller. Correct, sir.
    Mr. Poe. So are the Russians in violation and are not in 
compliance with eight other treaties?
    Ms. Gottemoeller. Sir, they are not in compliance or in 
violation with the INF Treaty and the CFE Treaty. In certain 
other cases, we have concerns that we are working with them on.
    Mr. Poe. So is it ``yes'' or ``no,'' as far as eight 
treaties?
    Ms. Gottemoeller. I do not believe the number is eight, 
sir. It is ``no'' for eight treaties.
    Mr. Poe. If the Russians are in violation of the INF 
Treaty--and you have testified that they are in violation--the 
United States has options. One of those options is to withdraw 
from the INF Treaty; is that correct?
    Ms. Gottemoeller. That is correct. And, in fact, the United 
States has a right to withdraw in any event. It is one of the 
articles of the treaty. We always put that in for national 
security purposes, a country may choose to withdraw from a 
treaty.
    Mr. Poe. And what is the United States position on--what is 
our position today on withdrawing from the INF Treaty? We know 
they are in violation. Are we going to withdraw from the 
treaty?
    Ms. Gottemoeller. Our view is that it is in the national 
security interests of the United States and of our allies and 
partners to remain in the INF Treaty and to work to bring 
Russia back into full compliance with the treaty.
    Mr. Poe. How long are we going to give the Russians to come 
back to the fold, so to speak? A month? A year? Ten years? When 
are we going to make the decision, you have had enough time to 
come into compliance after you are in clear violation, this is 
the day of reckoning? How long are we going to give them to 
come into compliance?
    Ms. Gottemoeller. Sir, I can't tell you exactly. We have a 
diplomatic effort going on.
    I can give you two historical examples. In the case of the 
ABM Treaty, the Reagan administration and the Bush 
administration worked with the Soviets diplomatically for 5 
years before they were able to bring the Russians back into 
compliance with that treaty.
    In the case of the CFE Treaty, the Bush administration, 
George W. Bush administration, and the Obama administration 
also worked for 5 years. And, in that case, we did not bring 
the Russians back into compliance with the treaty. We declared 
countermeasures, and, basically, we have now put in place 
countermeasures against the Russians with regard to the--with 
regard to the CFE Treaty.
    Mr. Poe. Two more questions.
    It is my understanding that we first detected Russian 
violations of the INF Treaty in 2008. If I do my math 
correctly, that is 6 years.
    I am no expert in arms, but I would think the Russians 
would lather up with the idea that they are in violation, 
continue to be in violation, and we are just going to keep 
postponing a decision to withdraw from the treaty.
    What other options do we have besides withdrawing from the 
treaty?
    Ms. Gottemoeller. Sir, if I may, I just wanted to say that 
in 2008 we did not actually know that the Russians were in 
violation of the INF Treaty. It took some time to determine 
that fact. This is an issue that----
    Mr. Poe. But others of us believed it to be in 2008.
    Without arguing over the timeframe, what other options do 
we have besides withdrawing from the treaty?
    Ms. Gottemoeller. I will just say that we will be happy to 
talk about that matter in closed session, so--but we have a 
number of options. I have pointed to them already. One has been 
to, you know, declare countermeasures. That is something we did 
in the case of the CFE Treaty.
    We also, I will say, right at the moment, have a kind of 
three-pronged approach in place for dealing with this matter. 
We are continuing to pursue it diplomatically. We have economic 
countermeasures that we are looking at. And we are also--and my 
colleague Brian McKeon can talk in more detail about this--we 
are looking at military measures that we may wish to take.
    So we are, in fact, pursuing our own national policy in 
this regard. And if you are talking about in the realm of legal 
and treaty work, then we have other options such as 
countermeasures that can be pursued.
    Mr. Poe. Is Russia deploying or preparing to deploy 
tactical nuclear weapons in Crimea?
    Ms. Gottemoeller. Sir, I don't know. But we are very, very 
alert to statements that have been made by certain experts on 
the Russian side about deploying capable aircraft, dual-capable 
aircraft, such as backfire and missile systems that would also 
be dual-capable. And we have spoken to the Russians about this 
and expressed our concern about any option of reintroducing 
nuclear weapons into Crimea.
    Mr. Poe. The Chair will recognize the gentleman from 
Tennessee, the ranking member, Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I want to first thank the witnesses, Ms. Gottemoeller and 
Mr. McKeon, for their service to the country.
    I worry that Congress doesn't make your job any easier. In 
fact, sometimes it is a nuisance to deal with the legislative 
branch, but nonetheless we are here.
    I think we all agree that the Russians have cheated on this 
treaty. The question is, what do we do about it?
    I am worried, Mr. Chairman, that at least the public 
portion of this hearing is doing more of a service to the 
Russians than it is to our own people. It is easy for us to 
saber-rattle up here and look tough and look strong, but I 
worry that, you know, authoritarian countries like Russia do 
not have hearings like this; they do not show their hand. And 
we should be doing what we can to fight back intelligently, not 
for domestic political consumption.
    Oil, perhaps, might be our most powerful weapon. You know, 
the ruble has tumbled in recent weeks due to the low oil 
prices. Most Americans are rejoicing that oil is, what, about 
$66 a barrel now. You know, we have some folks in our own 
country who like high-priced oil. And I am not against our 
energy-producing regions, but oil as a weapon is a pretty 
powerful thing. Cheap oil also helps to stabilize Iran, 
countries like that.
    So, somehow or another, we need to figure out what would be 
the most effective thing. This isn't easy, as I have just 
pointed out with some geographical disparities within our own 
country. I am hoping that we as Americans don't get readdicted 
to foreign oil. We are truly blessed right now to have found so 
much oil in our own country and to be able to drive oil prices 
down. I love seeing OPEC in disarray. But we have some folks in 
our country who love high-priced oil.
    So, now, oil is just one of the weapons. There are many 
others. I actually think the thing that would scare Vladimir 
Putin the most would be if we lifted defense sequestration. And 
I look forward to the new Republican majority helping us do 
that.
    In order to do that, we probably are going to have to find 
either spending cuts, which would be my first choice, or 
revenue somewhere. And that would be an opportunity to show, 
for example, that--perhaps the chairman might not be aware, 
being from the Foreign Affairs Committee, not Defense--that 
just to maintain our current nuclear stockpile, just 
maintenance, not improvement, takes $350 billion over the next 
10 years. That is a lot of money.
    And right now we have difficulty forecasting where that 
money is going to come from. And for a Nation that didn't even 
pay for the wars in Iraq and Afghanistan but borrowed much of 
it from China, that doesn't make us look strong.
    So there are opportunities here for America to really be 
strong and to have an intelligent response to Mr. Putin and 
others who are warmongering with their violations of the INF 
Treaty. But let's not beat up on our own diplomats. Let's not 
beat up on our own Defense Department officials.
    You know, sometimes--and I venture to say that each one of 
us, when you know that your opponent has grievous flaws, as 
some of us have discovered in our own elections, those aren't 
necessarily disclosed immediately; sometimes you wait until the 
final debate--perhaps to give the administration the benefit of 
the doubt. They thought it was a more strategic opportunity to 
reveal this and the time was more appropriate.
    But we, as Americans, should all be on the same team. We 
should be unified in our response, an intelligent response, to 
these treaty violations by Russia. So I would hope, Mr. 
Chairman, in both the public portion of the hearing and the 
private portion of the hearing that we can have a first-rate 
strategic response to these treaty violations.
    So thank you, Mr. Chairman. I appreciate your indulgence.
    Mr. Poe. The Chair recognizes the chairman of the 
Subcommittee on Strategic Forces, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. McKeon, what is our strategy for responding to Russia's 
violation of the INF Treaty? And by that I want to know, what 
are the ends we are seeking to achieve? And how do we expect to 
see that happen?
    Mr. McKeon. Mr. Chairman, our strategy has two potential 
ends.
    First, we seek to convince Russia to return to compliance, 
as Under Secretary Gottemoeller has said, because we believe 
that preserving the treaty is in our mutual security interests.
    If Russia does not return to compliance, our end will be to 
ensure that Russia gains no significant military advantage from 
its violation.
    Mr. Rogers. What timeline do you have in mind?
    Mr. McKeon. I can't give you a timeline, sir, as the Under 
Secretary said. We are taking a hard look at it.
    I can say more about this in response to your question, if 
you will permit me.
    Mr. Rogers. Certainly. I want you to be brief, please. I 
have some questions for Ms. Gottemoeller.
    Mr. McKeon. Understood.
    The ways and means of our strategy address both of these 
ends. As I said in my statement, we continue to remind Russia 
why we signed this treaty in the first place. As Rose has said, 
we have got a range of options--diplomatic, economic, 
political--that we could impose on Russia that would impose 
significant costs on them for its violations.
    The military responses would aim to negate any advantage 
Russia might gain from deploying an INF-prohibited system. And 
all of these would be designed to make us more secure.
    The range of options we are looking at in the military 
sphere fall into three broad categories: Active defenses to 
counter intermediate-range ground-launched cruise missiles; 
counterforce capabilities to prevent intermediate-range ground-
launched cruise missile attacks; and countervailing strike 
capabilities to enhance U.S. or allied forces.
    Mr. Rogers. Okay.
    Ms. Gottemoeller, has Russia deployed a ground-launched 
cruise missile violating the INF? Or do they have the 
capability to do that?
    Ms. Gottemoeller. Sir, we have seen them developing a 
ground-launched cruise missile that is in violation of the INF 
Treaty. They certainly have the capability to deploy it, we 
would judge.
    Mr. Rogers. And is there a difference between deployment 
and this limited operational capability? And describe it for 
us, please.
    Ms. Gottemoeller. Sir, I believe this is something that we 
might want to take up in more detail in our closed session. We 
will have some additional assistance from our technical staff 
at that time.
    Mr. Rogers. Okay.
    How many times have you discussed Russia's INF violations 
with your counterparts since the compliance report came out?
    Ms. Gottemoeller. Since the compliance report came out, I 
would have to count up exactly, but it is in the range of a 
dozen times.
    Mr. Rogers. To what end?
    Ms. Gottemoeller. Well, I will say that the Russians have 
said quite clearly to us that they believe that the INF Treaty 
is in their national security interests and that they do not 
intend to withdraw from the treaty now.
    Mr. Rogers. Do they say why they are not in compliance, 
then?
    Ms. Gottemoeller. They don't acknowledge, sir, that they 
are not in compliance with the treaty. And that has been one of 
the core issues that we have had to wrestle with them about at 
the present time. They say that they are in complete compliance 
with the INF Treaty.
    Mr. Rogers. And your response?
    Ms. Gottemoeller. My response is to repeat to them that we 
have grave concerns about a ground-launched cruise missile that 
they have tested to intermediate range. And we have given them 
some certain key pieces of information to convey to them our 
understanding of the program. But up to this point, as I said, 
they have not acknowledged the missile.
    Mr. Rogers. Now, you and Mr. McKeon have stated that you 
can't state that there is a timeline or you can't tell us what 
your timeline is. This has got to come to a close soon. 
Otherwise, the Russians have no reason to believe there are any 
consequences for violating this treaty or the other seven 
treaties that they are violating.
    Ms. Gottemoeller. Sir, I think we have been really clear 
with them about the implications of their violation of the 
treaty. And, in fact, I have said to my counterparts that we do 
not want to go down the road of putting in place the kind of 
countermeasures that would, you know, raise the kinds of 
threats that existed in Europe back at the time that INF was 
first agreed. And, as Brian McKeon said, we hope the Russians 
will remember the reasons for which they signed up to the INF 
Treaty in the first place. It was----
    Mr. Rogers. At any point----
    Ms. Gottemoeller [continuing]. To deal with certain 
threats.
    Mr. Rogers [continuing]. Do you anticipate giving them a 
drop-dead date?
    Ms. Gottemoeller. Sir, that is something that will have to 
be determined in the context of a discussion, you know, with my 
bosses. And it will also have to be determined talking with our 
interagency colleagues.
    But I want to really stress that this does not mean that we 
are doing nothing. We----
    Mr. Rogers. Yes, it does.
    Ms. Gottemoeller [continuing]. Are preparing for----
    Mr. Rogers. It really does, Ms. Gottemoeller.
    Ms. Gottemoeller. We are preparing for any options here or 
any possibilities.
    Mr. Rogers. At some point, you have to recognize that there 
are no consequences when you do nothing. And we are doing 
nothing. And it has been going on long enough.
    I would be much more reassured if you or Mr. McKeon could 
say, ``Yes, sir, they have by December 31, 2015, or it is 
over,'' or something. But just to keep saying, we are working 
on it, you know, we are trying, that could go on forever. And 
that is one of the reasons they are in Crimea right now.
    I am sorry. My time is up.
    Mr. Poe. The Chair recognizes the gentlelady from 
California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, both Secretaries, for being before us.
    My question is, with respect to the determination of Russia 
being in noncompliance, why did it take over 2 years to figure 
that out?
    Ms. Gottemoeller. Part of that, ma'am, has to do with the 
way the interagency process goes forward.
    We have a number of inputs that go into that process, one 
of which, of course, is information that comes from our 
intelligence agencies and their analyses. Then, in the case of 
this particular violation, we also had a diplomatic effort 
going on, again, to try to clarify the matter with the Russian 
Federation and work with them on it.
    And after that process had been going on for some time, 
then we had our compliance process, which is, again, an 
interagency activity that puts together the Defense Department, 
the ICE, the State Department, Energy Department, to look very 
carefully at all aspects of the situation, because it is a very 
serious matter to call a country in violation of a treaty.
    So that is why it takes some time.
    Ms. Sanchez. And did the administration, during any of this 
time, withhold any information from the Congress with respect 
to this?
    Ms. Gottemoeller. No, ma'am. We briefed the Congress 
regularly throughout this period.
    Ms. Sanchez. Has Russia responded satisfactorily to the 
demands that we have made, with respect to the INF compliance?
    Ms. Gottemoeller. We have been very concerned, Ms. Sanchez, 
that, in fact, they have not acknowledged the violation.
    Ms. Sanchez. They continue to say, there is no violation, 
we are in compliance. So you are sort of----
    Ms. Gottemoeller. Yes.
    Ms. Sanchez [continuing]. At a standstill with respect to 
that?
    Ms. Gottemoeller. Well, I will put it more succinctly. They 
have not acknowledged the missile. They have not acknowledged 
the missile.
    Ms. Sanchez. Back in the 1980s, how long did it take the 
USSR to come back into compliance with the ABM Treaty once the 
USSR had violated that treaty?
    Ms. Gottemoeller. The Reagan administration and the Bush 
administration worked on this. The Soviet Union was declared in 
noncompliance in 1987. After 5 years of discussion and 
negotiation, the Russians acknowledged their violation in 1991. 
Came back into compliance, with the elimination of that radar 
over the period of time it took to dismantle it, but 1992. So 
it was a 5-year process.
    Ms. Sanchez. And, during that time, did the administration 
continue to engage with the Russians on that issue and others?
    Ms. Gottemoeller. Yes, ma'am. During that time, in fact, 
the Reagan administration negotiated the INF Treaty, and we 
continued in full compliance with all the treaties and 
agreements that we had in place at that time, including 
implementing the SALT II Treaty, which was not ratified at that 
point but which we had politically agreed to implement with the 
Soviets.
    Ms. Sanchez. So, as I recall, when President Reagan 
submitted the report with respect to noncompliance, he stated 
that better verification and better compliance provisions would 
help finding effective ways to ensure compliance is central to 
the process.
    Is this still an ongoing challenge? Should we be investing 
more in verification? Where is it that we can do a better job 
so that it is not a 2-year process before we figure out what 
the heck is going on?
    Ms. Gottemoeller. Ma'am, I think the most important thing 
is national technical means and having very capable national 
technical means. And this is----
    Ms. Sanchez. And what does that mean?
    Ms. Gottemoeller. That means our own capabilities like 
satellites, overhead satellites, radar systems, and systems 
that we have full control of. Of course, it is nice when you 
have on-site inspection, as we do with New START. That is a 
very good situation. But, in other treaties and agreements, we 
do not have on-site inspection. And the on-site inspection 
regime of the INF Treaty ended in 2001.
    So I think that the most important thing is strong 
investment in our national technical means and preservation of 
those capabilities and, indeed, expansion of those 
capabilities.
    Ms. Sanchez. And, in the current--as you look at the 
current budgets that we have, are we doing that? Or have we 
sort of just stepped and expected to be doing this verification 
and compliance issue with what we have?
    Ms. Gottemoeller. Ma'am, again, this area is not wholly in 
my, you know, budget job jar, so to say. So I think it would 
make sense to take up this point in our closed session, where 
we will have a broader group of experts to talk about it.
    Ms. Sanchez. Thank you. I appreciate your help.
    And thank you, Mr. Chairman.
    Mr. Poe. The Chair recognizes the gentleman from Arizona, 
Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you both for being here.
    Ms. Gottemoeller, I guess I should ask you for some 
diplomatic immunity here for the rather pointed nature of some 
of my questions.
    You were the key architect for the New START treaty, and, 
under your negotiation and your arms control expertise, for the 
first time the United States reduced our strategic nuclear 
potential while Russia was gaining the opportunity to increase 
theirs.
    And all this time, of course, Russia was cheating on the 
INF Treaty. And you knew about that, and you didn't say 
anything. And it really concerns me, in that any negotiations 
that we have with Iran or any treaty that we have with them, I 
don't see how, in light of that, that they would have any 
reticence to cheat on such an agreement.
    And now Russia is building a series of first-strike 
weapons, including its new cruise missile, the submarine, the 
Severodvinsk class, with the long-range land-attack cruise 
missile, not to mention its Club-K cruise missile system, and 
that is one that kind of frightens me significantly. I have a 
picture of it here, and I wish everyone could take a look at 
that, where it might be for sale to the right bidder from 
Russia. And, of course, it is designed to be hidden aboard 
container cargo ships.
    So my question to you is: Why is Russia preparing this 
variety of first-strike capabilities, and how do these 
capabilities promote stability?
    Ms. Gottemoeller. Sir, if I may right off the bat be 
straight with you, as well, we did not believe that the 
Russians were violating the INF Treaty during the period when 
New START was being negotiated and during the period when it 
was being considered for ratification, the advice and consent 
of the Senate for ratification of the treaty. We only became 
concerned about it later.
    Again, this is a topic we can discuss in detail in closed 
session, and I will be happy to do so, but I did want to be 
straight with you at the outset about that.
    Now, when we negotiated the New START treaty, we realized 
that, in fact, the Russians were experiencing a mass 
obsolescence of their Soviet-era systems and that they would be 
modernizing, as we are now embarking on modernization 
ourselves. There is a little bit of a phase issue here of 
modernization programs taking place at different times.
    I will stress that one of our concerns in negotiating and 
putting into place the New START treaty was to ensure that 
there were certain central limits on what the Russian 
Federation could deploy.
    Mr. Franks. But I guess my question to you is, why do you 
think they are preparing this variety of first-strike 
capabilities? And how does that contribute to any stability 
between our countries?
    Ms. Gottemoeller. I think partially, sir, it is tradition 
for the Russian Federation to heavily rely on their ICBM 
forces. They are a large ground-based power, a large land 
power, and they have traditionally historically depended on 
highly accurate ICBM systems. I will say----
    Mr. Franks. This is more in the area of cruise missiles, I 
mean, things that are outside our agreement.
    Let me shift gears. They are offering this Club-K system at 
arms sales around the world. I mean, you can find it on the 
Internet.
    And what are the consequences to Russia for selling such 
systems? And do we have any consequences in mind for them doing 
that?
    Ms. Gottemoeller. We have always been concerned about the 
sale of high-technology weapons systems freely around the 
world. We have a whole range of export control regimes that 
deal with that, some of them multilateral in nature. And we do 
clearly express our concerns about these kinds of things.
    Mr. Franks. But given their profound danger, is our 
response limited to expressing our concerns?
    Ms. Gottemoeller. I am not--no, I am not familiar with this 
particular system and the sales record that the Russians may 
have had, so we will be prepared to get you more information on 
that if you are interested.
    The last point I wanted to make about their ICBM forces is 
the central limits of New START really are so small by 
comparison with the historical numbers that the Russians really 
do not have the opportunity for a strike capability that would 
be, you know, a decapitating first strike or something like 
that. It is just not possible with the lower numbers. And that 
is why we do emphasize that these kinds of treaties are 
beneficial for strategic stability.
    Mr. Franks. As far as their decapitating first-strike 
capability, that is something we should talk about in the 
closed session, because there might be some issues to take on 
that front.
    Mr. McKeon, if I could, to try to squeeze it in under my 
time here, how is DoD responding to the rise in Russian first-
strike capability development and planning?
    Mr. McKeon. If I could, sir, briefly on the Club-K, I am no 
expert on it, and we will get you more information, but I don't 
believe they have sold it yet. They have been showing it off at 
arms shows----
    Mr. Franks. Just the arms shows, yeah.
    Mr. McKeon. Yes.
    Mr. Franks. But it doesn't encourage me that----
    Mr. McKeon. No, it is not a great sign. I am not trying to 
downplay the concern that you have. I just don't think it has 
been sold yet to--they are marketing it at arms shows.
    As I said, sir, earlier in response to Chairman Rogers, we 
are looking at a number of possible countermeasures in the 
military sphere, ranging from reactive defense to counterforce 
to countervailing defense measures. I don't want to get into 
the specifics because we are still working through various 
options, but we have a broad range of options, some of which 
would be compliant with the INF Treaty, some of which would not 
be, that we would be able to recommend to our leadership if a 
decision were taken to go down that path.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Poe. The Chair recognizes the ranking member of the TNT 
committee, Mr. Sherman from California.
    Mr. Sherman. Thank you.
    What are the military benefits to the Russians of the 
violations we are accusing them of? If they developed and 
deployed these intermediate-range missiles, would that enhance 
their ability to threaten our European allies? Or do they 
already have enough ICBMs to deal with both whatever they would 
want to do off the European continent but also on the European 
continent, as well?
    Ms. Gottemoeller. Sir, it has been a fact from the outset 
that an ICBM, an intermediate-range target could be handled by 
an intercontinental-range system. That is just a fact----
    Mr. Sherman. Right.
    Ms. Gottemoeller [continuing]. That has been well 
understood, in fact, since the INF Treaty and before. So our 
view is that the Russians have adequate capability to handle 
issues around their periphery.
    They actually argue, again, among their expert community 
that the targets in Eurasia are the ones that concern them 
most, not necessarily emphasis on NATO and the European allies 
but targets across Asia, as well.
    But this is a good question for the Russians, because it is 
not--you know, we don't see a need for the system, quite 
honestly.
    Mr. Sherman. So they are spending a lot of money at what 
now is tough economic times for them to develop, in violation 
of their treaty obligations, a basically duplicative system 
that will allow them to do that which their ICBMs could already 
do in both Europe and Asia.
    Ms. Gottemoeller. Yes, sir. That is our point of view.
    Mr. Sherman. Now, the treaty provides for a special 
Intermediate-Range Nuclear Forces Treaty Special Verification 
Commission. Have we invoked that formal provision, and do we 
plan to?
    Ms. Gottemoeller. Sir, we wanted to drive this issue to a 
higher level, and, in fact, I believe since I briefed this 
group the last time, we have had President Obama writing to 
President Putin. We have also had my boss, Secretary Kerry, but 
also Secretary Hagel and Chairman Dempsey all speaking to their 
counterparts at a high level about our grave concern in this 
matter, as well as I continue my diplomacy in this arena.
    So we really wanted to drive it to a high level and not 
have it being handled in the more or less routine channels of 
the SVC.
    Mr. Sherman. So we haven't convened this special commission 
because we wanted to do something even more formal and more 
powerful.
    Ms. Gottemoeller. Correct, sir. That is the idea, to have a 
very, very strong spotlight shown on the measures, on the 
issue.
    Mr. Sherman. What does Russia get from this treaty? They 
claim we violate it. They themselves are violating it. We 
pulled out of the ABM Treaty. They could solve a lot of 
diplomatic problems by just pulling out of this treaty. What 
benefit do they get from our compliance with the treaty?
    Ms. Gottemoeller. I think it is the same benefit, sir, that 
they got when they signed up to the treaty back in the late 
1980s--that is, this treaty, by banning the deployment of 
intermediate-range nuclear systems, addresses the treat of a 
short-warning, very short-warning attack on critical strategic 
targets such as strategic command and control. So the benefits 
to the Russians are the same as they always were in terms of 
the military benefits.
    Mr. Sherman. And from that standpoint, they benefit more 
than we do. Since the days of missiles in Cuba, the Russians 
have never been able to use that short-range, short-warning 
against us. And yet, if this treaty were to fall apart, NATO 
would have that capacity against their most sensitive assets, 
correct?
    Ms. Gottemoeller. Well, sir, I don't want to jump out ahead 
of my DoD colleagues in terms of what precisely would be the 
countermeasures. Mr. McKeon might want to talk to that. But----
    Mr. Sherman. Why don't we ask him to----
    Ms. Gottemoeller [continuing]. If I may, I just want to 
stress that we are talking about here ground-launched cruise 
missiles in this case, and I think that is the important thing. 
The Russians have sea-based capabilities and air-based 
capabilities that can also threaten CONUS, of course.
    Mr. Sherman. Mr. McKeon?
    Mr. McKeon. Sir, we don't have ground-launched cruise 
missiles in Europe now, obviously, because they are prohibited 
by the treaty, but that would obviously be one option to 
explore, some kind of----
    Mr. Sherman. Yeah. The point I was making is I think Russia 
has more to lose if this treaty falls apart than we do because 
we have land-based facilities within between 500 kilometers and 
5,500 kilometers of their most sensitive sites; they do not 
have land bases within that range of our sites.
    And, with that, I will yield back.
    Mr. Poe. The gentleman yields back his time.
    The Chair recognizes the gentleman from Ohio, Mr. Turner, 
for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you both for being here.
    I want to disagree first, Mr. McKeon, with a comment you 
made. You said that arms control is the most important tool we 
have for national security. I just want to put a footnote to 
that: Of course, China, North Korea, Iran, Pakistan have not 
been part of the reduction of the nuclear threat to the United 
States.
    Ms. Gottemoeller, you very frequently in your testimony 
here said, ``That would be best answered in closed session.'' 
Well, let me just tell you, as I begin to ask you these 
questions, that will not be an acceptable answer to my 
questions. I have sat here, and there is not one person that 
has asked you anything that is classified that you can't 
answer. And although you may choose it would be best to answer 
it in closed session, this is an open session, the questions we 
ask are open, and they are questions that you have 
responsibility to answer for both the American public and to 
Congress. So I will not be accepting that the best answer would 
be in closed session. I accept your best answer here.
    We are going to return back to the issue of Russia 
violating or not being clearly in compliance with its treaties. 
Chairman Poe had asked if it was not in compliance with as many 
as eight. You identified that they were not in compliance with 
the Treaty on Intermediate-Range Nuclear Forces, the INF, and 
that they were not in compliance with the Treaty on 
Conventional Armed Forces in Europe, CFE. That is two.
    You then said to him that there were others, but you didn't 
specify what those others--and it doesn't require closed 
session for you to specify those because it is not classified. 
So I would like to ask you, in what others is Russia violating 
or not clearly in compliance besides those two?
    Ms. Gottemoeller. We have long been concerned about their 
Soviet-era programs of chemical weapons and biological weapons. 
And so we have continued to express great concern about those--
--
    Mr. Turner. So is Russia violating or not clearly in 
compliance with the Biological Weapons Convention, BWC, or the 
Chemical Weapons Convention, CWC? Your answer is?
    Ms. Gottemoeller. We are continuing to press them on 
providing us information about those two----
    Mr. Turner. Are they----
    Ms. Gottemoeller [continuing]. Programs.
    Mr. Turner [continuing]. In compliance with those two 
treaties?
    You know the answer. Provide the answer. It is not 
classified. If you have concerns--you either can or cannot 
testify before us that they are in compliance.
    Are they in compliance with the Biological Weapons 
Convention, BWC? Yes or no? Yes or no? Not classified. Clearly 
within your realm. Clearly within something that is public 
consumption and certainly is something for oversight for 
Congress. Are they in compliance with the Biological Weapons 
Convention, your scope of your employment, BWC? Are they?
    Ms. Gottemoeller. With regard to the Soviet-era programs, 
no----
    Mr. Turner. Great. Okay.
    Ms. Gottemoeller [continuing]. We have problems.
    Mr. Turner. So we have three from you now.
    The next one that you mentioned was the Chemical Weapons 
Convention, CWC. Are they in compliance with the Chemical 
Weapons Convention, CWC? Yes or no?
    Ms. Gottemoeller. With regard to the Soviet-era programs, 
no, but----
    Mr. Turner. Okay. So that is four.
    Ms. Gottemoeller [continuing]. Sir, if I may----
    Mr. Turner. We are clicking along here. New START Treaty, 
are they in compliance or not in compliance?
    Ms. Gottemoeller. Yes.
    Mr. Turner. Yes what?
    Ms. Gottemoeller. Yes, they are in compliance.
    Mr. Turner. Okay. Great. Thanks.
    Okay. Let's see--nope, that is an acronym. The Treaty on 
Open Skies, compliance or not in compliance?
    Ms. Gottemoeller. They are in compliance with the Open 
Skies Treaty, sir.
    Mr. Turner. The moratorium on nuclear testing, are they in 
compliance or not in compliance, Ms. Gottemoeller?
    Ms. Gottemoeller. The moratorium on nuclear testing, yes, 
we believe they are in compliance with their moratorium. But 
you do realize, sir, that this is not a legally binding treaty. 
It is, you know--essentially, it is a political----
    Mr. Turner. It is one within the realm of responsibility of 
your employment, is it not?
    Ms. Gottemoeller. Correct.
    Mr. Turner. Great. That is why I wanted an answer from you.
    The Vienna Convention?
    Ms. Gottemoeller. The Vienna Document, sir?
    Mr. Turner. Compliance or not compliance?
    Ms. Gottemoeller. They are in compliance with the Vienna 
Document.
    Again, these are politically binding commitments. They are 
confidence-building measures. And, again, we have some concerns 
with how they have implemented certain aspects of the Vienna 
Document.
    Mr. Turner. But your concerns are not that they are 
violating it?
    Ms. Gottemoeller. Our concern is that they are not----
    Mr. Turner. It would have to be they are violating it, 
right? I mean, you don't have concerns that maybe they are 
just, you know, not fully committed to it. It is either they 
are complying or not complying. You have concerns as to whether 
or not they are not complying, right?
    Ms. Gottemoeller. Correct. We----
    Mr. Turner. Great.
    Ms. Gottemoeller. Okay.
    Mr. Turner. So we will count that in the category of 
``maybe.''
    The Missile Technology Control Regime, MTCR, compliance or 
not compliance?
    Ms. Gottemoeller. The Missile Technology Control Regime we 
believe that they are essentially in compliance with, but I 
will say that, again----
    Mr. Turner. The Budapest Memorandum? I think we can both 
kind of guess what your answer should be on that one.
    Ms. Gottemoeller. I definitely agree with you on that one, 
sir.
    Mr. Turner. And that would be?
    Ms. Gottemoeller. They are not in compliance with----
    Mr. Turner. Great.
    Ms. Gottemoeller [continuing]. The Budapest Memorandum.
    Mr. Turner. All right.
    Ms. Gottemoeller. But, again, let me stress that this is a 
political----
    Mr. Turner. All right. One, two, three, four, five. Okay, 
so there are five, at least, you would tell us openly that they 
are violating.
    When you said to Chairman Poe that there were others, are 
there others besides the Treaty on Intermediate-Range Nuclear 
Forces, INF; the Biological Weapons Convention, BWC; the 
Chemical Weapons Convention, CWC; the Treaty on Conventional 
Armed Forces in Europe, CFE; the Budapest Memorandum that you 
believe they are violating?
    Ms. Gottemoeller. No.
    Mr. Turner. Are there others?
    Ms. Gottemoeller. I do not, sir.
    Mr. Turner. So you say there are no others?
    Ms. Gottemoeller. I do not at the moment recall any others.
    Mr. Turner. ``Do not recall.'' I mean, this is your 
professional responsibility to recall. This is not like, you 
know, Mr. Gruber coming here and saying, ``I just suddenly 
don't remember what I was talking about.'' I mean, this is your 
responsibility.
    Are there others, or are there not?
    Ms. Gottemoeller. No, sir, there are none others that I 
know of.
    Mr. Turner. Thank you, Mr. Chairman. I yield back.
    Mr. Poe. The Chair recognizes the gentleman from Rhode 
Island, Mr. Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    To our witnesses, in particular Deputy Under Secretary 
McKeon, what are the risks for national security if the U.S. 
withdraws from the INF or from New START as a response to 
Russian INF violations?
    Mr. McKeon. Well, in terms of the INF Treaty, sir, the 
primary risk is greater instability in Europe if the Russians 
were to deploy this noncompliance system in significant 
numbers.
    In terms of withdrawal from New START, right now there are 
central limits under the treaty on strategic systems. They come 
into effect in early 2018 and then last for 3 years after that. 
So if we were to withdraw from the treaty, there would be no 
limitations on Russian strategic systems and we would lose the 
verification regime of that treaty, including the on-site 
inspections.
    So, over time, we would continue to have less and less 
knowledge of Russian strategic systems, which would make the 
Joint Chiefs nervous, and there would be no limitations on 
their strategic systems, which we don't think would be to our 
benefit.
    Mr. Langevin. So, in your assessment, does arms control 
support national security? And if so, how?
    Mr. McKeon. Yes, sir, it does. And I believe in my 
statement I said it is an important element, not the most 
important element, of national security.
    Mr. Langevin. Under Secretary Gottemoeller, why did the 
U.S. not simply withdraw from the ABM Treaty in the 1980s?
    Ms. Gottemoeller. As I understood, sir, there was a view at 
the time, again, that it contributed to strategic stability, 
and there was, I think, a good record of discussions on what 
was going on with the Krasnoyarsk radar at that time. But the 
treaty was seen as being important to the balance between 
strategic offensive and defensive forces at that time.
    Mr. Langevin. Was diplomacy successful in that instance? 
And how?
    Ms. Gottemoeller. In the end, yes, diplomacy was 
successful. It was a long and difficult discussion with the 
Soviet Union to begin with and then the Russian Federation, but 
the Russian Federation did end up dismantling the Krasnoyarsk 
radar and returning to full compliance with the ABM Treaty.
    Mr. Langevin. Given the what appear to be significant 
violations of the INF Treaty, should the U.S. withdraw from 
INF?
    Ms. Gottemoeller. My view, sir, is that we should not in 
any way take steps that would essentially give the Russians a 
bye in this matter. If we withdrew from the INF Treaty, it 
would legalize the illegal actions they are taking now, and I 
don't think that is in our interest to do so.
    Mr. Langevin. All right.
    Under Secretary Gottemoeller, Secretary McKeon, the Defense 
Science Board concluded in a January 2014 report that, I quote, 
``monitoring for proliferation should be a top national 
security objective but one for which the Nation is not yet 
organized or fully equipped.''
    Do you agree? And what are State and DoD doing to address 
this deficiency?
    Ms. Gottemoeller. Sir, perhaps I will allow Mr. McKeon to 
answer that. I gave my version of views on that to Mrs. 
Sanchez.
    So, Brian, would you like to add anything?
    Mr. McKeon. Sir, I am not familiar with that particular 
report. I think, as a general matter, we would agree that we 
can make more investments in verification technologies. And you 
will have some folks from the IC in the closed session, and 
they could probably speak with a little more detail about some 
of their deficiencies and investments we ought to be making.
    Mr. Langevin. Okay.
    Since I still have some time, Secretary Gottemoeller, in 
answering some of the previous questions of my colleague on 
Russia's compliance or noncompliance on several treaties, you 
weren't fully able to finish your answers. Do you want to add 
to that and complete your answers where you weren't fully able 
to do so?
    Ms. Gottemoeller. Thank you, sir.
    I think the important point is that there are two treaties, 
the INF Treaty and the CFE Treaty, where we are fully concerned 
about violation of the treaty by the Russian Federation.
    In some of the areas we were discussing, like the Chemical 
Weapons Convention, I always like to stress that we don't want 
to throw out the baby with the bathwater. The Russians continue 
to eliminate their Soviet-era holdings, and I just gave a 
speech in The Hague last week noting the intensified efforts by 
the Russians to get rid of their chemical weapons from the 
Soviet era.
    So, although we have concerns about the Soviet-era programs 
and that they haven't given us all the data that they may have 
with regard to those programs, we are satisfied that they are 
intensively working to eliminate the huge stock of chemical 
weapons that they have from that era.
    Mr. Langevin. Very good. My time has expired, but thank 
you.
    And I yield back.
    Mr. Poe. The gentleman yields back his time.
    The Chair recognizes the gentleman from Ohio, Mr. Lamborn.
    Mr. Lamborn. Colorado.
    Mr. Poe. Colorado. I am sorry. Did I insult Colorado or 
Ohio?
    Mr. Lamborn. No, they are both great States.
    Mr. McKeon, is Russia deploying or preparing to deploy 
tactical nuclear weapons in Crimea?
    Mr. McKeon. Sir, I don't know the answer to that. We have 
not seen that, but we are watching it closely.
    Mr. Lamborn. Are there not open-source reports that such is 
the case?
    Mr. McKeon. We have seen some of those open-source reports, 
but I don't think we have seen--and we could get into it in the 
closed session--I don't think we have seen that actually 
occurring.
    Mr. Lamborn. Okay. Well, maybe we can talk more about that 
later.
    Ms. Gottemoeller, what is the position of the Department of 
State concerning a moratorium on testing of kinetic energy 
antisatellite weapons?
    Ms. Gottemoeller. Sir, we have looked at that option as a 
perhaps diplomatic option that we would like to pursue, but we 
are not placing any emphasis on it at this time.
    Mr. Lamborn. Okay. I might come back to you in a second on 
this. I want to see what DoD thinks about that.
    Mr. McKeon, does DoD have a position on such an action that 
we just discussed?
    Mr. McKeon. I apologize, sir. I was consulting my 
colleagues on another issue, and I didn't hear your question.
    Mr. Lamborn. Okay. Anything concerning a moratorium, with 
our country and any others, on not testing, so as not to test, 
kinetic energy antisatellite weapons or methods?
    Mr. McKeon. I will confess I am only in the Department 4 
months. I don't believe we are pursing or considering a 
moratorium of that kind.
    Mr. Lamborn. Okay.
    My concern is that there may have been discussion about 
that by some folks in the Department of State that was done 
unilaterally without talking to DoD, because DoD would be, I 
think, less receptive to such a thing, knowing more about what 
is really at stake.
    Mr. McKeon. Sir, it is a big government, and there are lots 
of people and lots of layers, and there may be people in 
different departments who have talked about it, but I don't 
believe that is the position of the United States Government at 
this time.
    Mr. Lamborn. Okay.
    And back to you, that is not a U.S. Government position?
    Ms. Gottemoeller. That is correct, sir.
    And I did want to emphasize, I mentioned a moment ago that 
there had been some discussions and consideration of it, and 
these were fully interagency discussions. I do want to 
underscore that there were opportunities to fully discuss and 
consider pros and cons and so forth on an interagency basis. 
And so there shouldn't be a sense that this was, you know, 
something that was being pursued unilaterally by the U.S. 
Department of State.
    But, as I said, we are not placing an emphasis on pursuing 
it at this time.
    Mr. Lamborn. Well, good, because I would be very concerned 
if Department of State was pursuing something without talking 
to the folks at Department of Defense.
    Ms. Gottemoeller. Sir, my experience is that simply doesn't 
work.
    Mr. Lamborn. Okay. We are all in agreement on that.
    Mr. McKeon. Yeah. Sir, if I might add, I will speak to my 
own newness in the Department, and I have certainly not heard 
any discussion of this issue. I didn't mean to say that----
    Mr. Lamborn. Okay.
    Mr. McKeon [continuing]. People in State were not 
coordinating with DoD. I just have not----
    Mr. Lamborn. Okay.
    Mr. McKeon [continuing]. Seen that in my short time.
    Mr. Lamborn. Okay. Thank you for that.
    Now, changing subjects, if I am not mistaken, Ms. 
Gottemoeller, you said earlier that INF weapons that the 
Russians would be pursuing in violation of the INF, you know, 
cruise missiles between 500 and 5,000 kilometers----
    Ms. Gottemoeller. Uh-huh.
    Mr. Lamborn [continuing]. Would be only duplicative of what 
they already have a capability of doing with strategic 
missiles. Is that----
    Ms. Gottemoeller. That is our understanding, sir, and our 
view as to why this is a redundant kind of capability.
    Mr. Lamborn. Well, with that in mind, that seems to 
contradict what General Breedlove has said, the commander of 
our European forces. In an April news report, he said, ``A 
weapons capability that violates the INF that is introduced 
into the greater European landmass is absolutely a tool that 
will have to be dealt with. It can't go unanswered.''
    Ms. Gottemoeller. I agree with that, sir, absolutely, 
particularly in the context that this is a weapon that has been 
banned for, you know, decades at this point. There are many 
reasons on the political and the military front that we must 
respond to it.
    Mr. Lamborn. So when you use the word ``duplicative,'' you 
are not in any way slighting that capability, which someone 
might assume. You are saying this is a very serious matter.
    Ms. Gottemoeller. Absolutely.
    Mr. Lamborn. Okay. Because ``duplicative'' means, oh, is it 
really that big of a deal?
    Ms. Gottemoeller. Well, again, my colleague from the 
Defense Department may wish to speak to this, but the only 
point I was saying is that we have known from the time that the 
ban was put in place in the late 1980s that if a country wished 
to use an ICBM, an intermediate-range system, in a depressed 
trajectory or a lofted trajectory, it could do so, and it would 
have the same kind of potential against intermediate-range 
targets in that kind of use.
    Mr. Lamborn. And, lastly, you do agree with General 
Breedlove, this must be dealt with?
    Ms. Gottemoeller. Absolutely, sir. Yes.
    Mr. Lamborn. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Poe. The Chair recognizes the gentleman from 
California, Mr. Garamendi, for 5 minutes.
    Mr. Garamendi. I thank you, Mr. Chairman.
    Secretary Gottemoeller, you were asked a series of 
questions about the various treaties and agreements, and you 
were compelled to answer ``yes'' or ``no,'' which is usually a 
way we use to try to trap people.
    Would you please, for the record, provide the additional 
information that this committee needs to fully understand the 
answers to your question?
    Ms. Gottemoeller. Yes, sir. I will be happy to do that. 
Thank you for the opportunity.
    Mr. Garamendi. I think he went through seven or maybe eight 
different treaties and agreements. I am sure the record would 
help you remember all of them.
    I personally dislike that kind of activity because it does 
not fully inform us about some very complex matters. I will 
take that up with Mr. Turner when I have him outside this room. 
And I wish he were here. It is just something we shouldn't be 
doing. We should get full answers if we really want to 
understand.
    I do have a series of questions. I suspect most of them are 
going to have to come in a closed session. But a lot of this is 
more about Europe than it is about the United States. What is 
the NATO position on all of these matters?
    Ms. Gottemoeller. I will begin. Perhaps my colleague would 
like to comment, as well.
    Our NATO allies have been very, very committed to arms 
control treaties and agreements as a way to enhance security 
and stability not only in Europe but also beyond. And they 
count on our leadership in trying to develop and continue to 
strengthen these regimes.
    And so we have briefed them regularly on our very grave 
concern with regard to Russian noncompliance in this case. They 
have been very concerned about it, but they have been very 
supportive of our efforts to bring the Russians back into 
compliance with the treaty.
    Mr. Garamendi. Are they suggesting that we bail out of the 
treaty?
    Ms. Gottemoeller. By no means, sir. Quite the opposite. 
They are very keen to ensure that we work in every way we can 
to bring Russia back into compliance with the treaty.
    Mr. Garamendi. Mr. McKeon, is that the view of the 
Department of Defense also?
    Mr. McKeon. It is, sir.
    And what I might add is that, although the NATO states are 
not parties to the treaty--it was originally a treaty between 
us and the USSR and now the successor states of the USSR--they 
are great beneficiaries of the treaty. So they are quite 
interested in it remaining in force.
    And, as the Under Secretary has said, we have kept them 
extensively briefed. After we went to Moscow in September, she 
briefed them by videoconference, the North Atlantic Council, on 
our efforts. And we have been working with them on their own 
intelligence and military assessment.
    Mr. Garamendi. Okay.
    I think you may have answered this once before, but does 
the Department of Defense hold the position that we should 
remain with the INF Treaty?
    Mr. McKeon. It is the position of the Department and of the 
administration that we should continue to be in the treaty and 
seek to bring the Russians back into compliance at this time. 
But we are planning for other options to push them back into 
the treaty or if the day should come that we don't want to be 
in the treaty any longer.
    But, yes, for the time being, it is the position of the 
administration we should stay in the treaty.
    Mr. Garamendi. Okay. It is my understanding that the 
principal issue is the delivery system or systems. Is that 
correct?
    Mr. McKeon. That is correct.
    Mr. Garamendi. Okay. Are they attempting to develop a new 
nuclear weapon or enhance an existing nuclear weapon?
    Mr. McKeon. I think we should save that for the closed 
session, sir.
    Mr. Garamendi. I had expected that answer.
    I think I will yield back at this point and await a closed 
session.
    Mr. Poe. I thank the gentleman from California.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Perry, for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    Ladies and gentlemen, thank you for your service to the 
country.
    Ms. Gottemoeller, is there a difference in our ability to 
detect an ICBM versus a GLCM?
    Ms. Gottemoeller. Sir, they are different kinds of systems. 
An intercontinental ballistic missile----
    Mr. Perry. I know what they are. I am just asking----
    Ms. Gottemoeller. Yeah.
    Mr. Perry. So isn't there a strategic advantage then, 
wouldn't Russia have a strategic advantage to have that 
delivery system that was undetectable by us because it--you 
know, it runs across the ground. I mean, by the time you see 
it, it is past you. Isn't that a strategic capability?
    Ms. Gottemoeller. I would say that it offers some, you 
know, capability to the Russians. Clearly, they have not had 
intermediate-range systems up to this point.
    Mr. Perry. Some? It offers a lot. We can't do anything 
about it. Once it is launched----
    Ms. Gottemoeller. But they have had a number of very 
capable both air-breathing systems, cruise missile systems, and 
intercontinental--the ballistic system----
    Mr. Perry. Right.
    Ms. Gottemoeller [continuing]. For many, many years now. 
And so, in terms of the increment of new capability, that is, I 
think, what we have to be concerned about.
    Mr. Perry. Right. This is a big step.
    Ma'am, I heard you say earlier that we hoped that they 
weren't going to embark on this. And with all due respect, I 
see this as, you know, they hope--or we hope--we hoped they 
wouldn't go into Ukraine, and we hoped they wouldn't shut off 
the gas valve, and we hoped a lot of things, but they took 
action, and we continue to hope.
    And another thing you said, that they didn't acknowledge 
the violation. Do we require them to acknowledge the violation 
before we act? I mean, if you are lying about something--like, 
right now they are saying, ``We are not in Ukraine.'' Do we 
require them to acknowledge the violation? Is that----
    Ms. Gottemoeller. Well, sir, I worked with them for over a 
year in the diplomatic realm to really see what we could do in 
the diplomatic realm to get them back into treaty compliance 
before we declared them in noncompliance last July, before we 
declared this violation.
    Mr. Perry. Right.
    Ms. Gottemoeller. So we do, of course, do everything that 
we need to do----
    Mr. Perry. I understand we do everything----
    Ms. Gottemoeller. We do everything that we need to do, 
including working on the diplomatic, economic, and military 
front, to put in place the policies that we need to have to 
counter this violation.
    Mr. Perry. And I would agree with you that diplomacy is 
preferable. But timing and the time that it takes also is a 
factor here, because other things are occurring while we are 
talking, and that is a concern.
    And I am concerned that we are counting on them to be the 
good actors, when they have a storied and longstanding history 
of violating and lying and obfuscating. And it concerns me that 
we just continue to go on.
    That having been said, do you believe that further 
unilateral disarmament by the United States is a correct 
response at any level?
    Ms. Gottemoeller. Sir, such unilateral reductions are not 
on the table.
    Mr. Perry. Okay. But we have heard that the President has 
discussed that, is considering that, might consider that, and I 
just want you on the record. You would agree that that is not 
an appropriate response at this time?
    Ms. Gottemoeller. As I said, sir, they are not on the 
table.
    Mr. Perry. Okay. And you agree that it is not a correct 
response?
    Ms. Gottemoeller. Sir, you know that I have people above my 
pay grade----
    Mr. Perry. Sure. But I am asking you. I get it. I am asking 
you, as the subject-matter expert that the Nation is depending 
on, you, what is your response?
    Ms. Gottemoeller. Sir, I am happy to tell you that such 
unilateral reductions are not on the table, and I think that is 
the correct----
    Mr. Perry. Okay. So you are not----
    Ms. Gottemoeller [continuing]. Response.
    Mr. Perry. I understand. You are not going to answer.
    Do you believe that the U.S. has violated our obligations 
regarding any of these agreements that have so far been stated, 
seven or eight of them? Have we materially violated any of 
them? I know Russia accuses us. They accuse a lot of things. 
But do you believe we have violated any of them?
    Ms. Gottemoeller. Sir, if you take a look at our compliance 
report, we determined that we are in full compliance with all 
of the treaties and agreements.
    Mr. Perry. Okay. So is America safer and more secure if we 
abide by the treaty and Russia continues to cheat?
    Ms. Gottemoeller. I think the important word here, sir, is 
``vigilance,'' that we have to recognize when there are 
problems in compliance, when there are actual violations, we 
have to be very vigilant and we have to deal with them. We 
cannot be taken by surprise. But I think, in general, yes, they 
continue to provide for mutual stability, predictability, and 
security.
    Mr. Perry. With all due respect--and I agree that vigilance 
is important, diplomacy is important. But we are talking about 
nuclear weapons being placed around places that are of vital 
interest to the United States and the world, and there is no 
margin for error.
    With that in mind, what would you suggest is the 
appropriate role for Congress in responding to this situation, 
as it appears that the administration cannot or will not 
respond timely?
    Ms. Gottemoeller. Well, sir, I would say that the 
importance of your oversight can never be overstated. We have 
an open----
    Mr. Perry. We understand the importance, but what----
    Ms. Gottemoeller. We have an open hearing here today.
    Mr. Perry. What would you suggest would be our correct 
response to safeguard our Nation and the world in our treaty 
obligations?
    Ms. Gottemoeller. Well, sir, I do want to emphasize that we 
do take action in this matter, we have taken action in this 
matter, and we will continue to take action in this matter. And 
we appreciate your partnership in supporting our efforts.
    Mr. Perry. Mr. Chairman, I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from Oklahoma, Mr. 
Bridenstine, for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    And I would like to thank the gentleman from Pennsylvania. 
I think he is hitting on a critically important point about 
imposing unilateral commitments on ourselves.
    And it opens up, I think, an important philosophical 
question for you, Mrs. Gottemoeller. If we were to comply with 
the INF and they were to continue violating the INF, do we have 
a treaty at all?
    Ms. Gottemoeller. I think one thing that is important to 
recall, sir, is that there are a number of countries who are 
parties to this treaty, 11 countries in addition to the Russian 
Federation and the United States. And so it is an entire treaty 
system that extends across Eurasia.
    So I think in our efforts--and I mentioned this earlier--it 
is very important to continue to press the Russians to come 
back into compliance with the treaty. If somehow we left the 
treaty, then it would essentially be giving them a free ride to 
do whatever they well pleased. So I think it is important to 
say that they are in violation, that there is a problem, you 
know, they are not abiding by their treaty commitments, and not 
give them a free ride.
    Mr. Bridenstine. So if we were to pull out of the INF, 
earlier you mentioned that that would make legal their illegal 
actions; is that correct?
    Ms. Gottemoeller. Correct.
    Mr. Bridenstine. So currently they are in violation of the 
law.
    Ms. Gottemoeller. Correct.
    Mr. Bridenstine. And that is going to supposedly encourage 
them to get back in compliance with the law.
    Ms. Gottemoeller. I think if international law means 
anything to the Russian Federation, they should be considering 
that matter.
    Mr. Bridenstine. What did international law have to say 
about the invasion and occupation of South Ossetia, for 
example?
    Ms. Gottemoeller. Well, I said in the outset of my remarks, 
of my testimony----
    Mr. Bridenstine. Real quick, what did----
    Ms. Gottemoeller [continuing]. That we are gravely 
concerned about----
    Mr. Bridenstine. What did international law say about the 
invasion and occupation of Abkhazia?
    Ms. Gottemoeller. We are very concerned about----
    Mr. Bridenstine. What did international law say about the 
invasion and occupation of Crimea?
    Ms. Gottemoeller. We are very concerned----
    Mr. Bridenstine. At what point----
    Ms. Gottemoeller [continuing]. About all those matters.
    Mr. Bridenstine. At what point does the international law 
mean anything as long as we continue to allow them to violate 
international law?
    Ms. Gottemoeller. I think, sir, that the important thing is 
that the structure of international law provides for global 
security and stability overall. And because there are 
violations out there--and in the case of Crimea, you pointed to 
this very strong example, you know, on the current scene, that 
Russia has violated the territorial integrity and sovereignty 
of Ukraine by coming into Crimea and by, you know, bringing 
their troops into eastern Ukraine, as well.
    But that doesn't mean, you know, that we do away with the 
OSCE principles or the U.N. charter. The system of law, it is 
important to maintain it in place----
    Mr. Bridenstine. So do you personally believe----
    Ms. Gottemoeller [continuing]. As a way to go after 
countries that then violate.
    Mr. Bridenstine. Let's say we have a bilateral commitment 
with Russia, a bilateral commitment, and they are in violation, 
the question is, do we continue to impose unilateral commitment 
upon ourselves that hinder us but enable them to continue to 
progress?
    Ms. Gottemoeller. I think the important thing, sir----
    Mr. Bridenstine. Just ``yes'' or ``no,'' do you think we 
should do that? Philosophically, do you think we should impose 
commitments upon ourself that hinder our ability while they are 
continuing to progress?
    Ms. Gottemoeller. In this case, the answer is ``yes'' to 
stay within the treaty and then to look at what countermeasures 
we have available--Mr. McKeon already mentioned we have a 
number of military countermeasures--that stay within the realm 
of the treaty.
    Mr. Bridenstine. Okay.
    So I have 1\1/2\ minutes left. Mr. McKeon, we are talking 
about cruise missiles here. What type of ability do we have as 
a Nation militarily to provide early warning to our friends and 
allies in Europe that these missiles may be engaged?
    Mr. McKeon. Sir, we could talk in more detail in closed 
session about our military capabilities in Europe. I don't want 
to advertise for the Russians what capabilities we have in 
Europe.
    Obviously, with short- or intermediate-range missiles 
closer to Europe's and NATO's borders, it leads to shorter 
warning time, and you have to have adequate sensors to have 
point defense.
    So we have some capabilities. I don't want to overstate 
what those are.
    Mr. Perry. And then, as far as the ability to hold at risk 
targets, do we have that ability?
    Mr. McKeon. Yes.
    Mr. Bridenstine. Roger that.
    I yield back.
    Mr. Poe. I thank the gentleman.
    This concludes the open session of these two subcommittees. 
The subcommittees will recess to 2212 for a classified 
briefing, and we will continue in 10 minutes, 4:05, as the 
clock on the courtroom wall, to quote a phrase.
    [Whereupon, at 3:55 p.m., the subcommittees recessed, to 
reconvene in closed session at 4:05 p.m. the same day.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

              

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
